          U.S. Department of Energy
          Office of l nspector General
          Office of Inspections and Special Inquiries




Inspection Report

Work Packages for Site Support Service;
at Los Alamos National Laboratory
                                  Department of Energy
                                       Washington, DC 20585
                                          November 29, 2006

MEMORANDUM FOR TI38 S E C m U R Y

FROM:
                         hp
                         Gregor    -   . riedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Work Packages for Site
                         Support Services at Los Alalnos National Laboratory"



The Department of Energy's Los Alarnos National Laboratory (LANL) enhances global security
by ensuring the safety and reliability of the U.S. nuclear weapons stockpile; developing technical
solutioils to reduce the threat of weapons of mass destnlction; and solving problems related to
energy, environn~ent,infrastructure, healtl~,and national security. Site support services at the
Laboratory, iilcludiilg maintenance and repairs, are provided by the contractor KSL.
Maintenance and repair work perfomled by KSL are controlled by the requirements of LANL
Irnplementation Procedure IMP 300.2, Integrated Work Management for Work Activities. This
documellt establishes the LANL Integrated Work Management process for doing work in a
manner that protects people, the environment, property, and the security of the Nation.

To implement the provisions of M P 300.2 and the Integrated Work Management process,
maintenance and repair work at Los Alamos is performed through the use of work packages. A
work package is a compilation of docuinents required to define the work, identify and analyze
hazards, develop and implement controls, perform the work, and ensure performance. A work
package requires various approvals designed to ensure that work sleps, hazards, and controls are
described in sufficient detail to safely perform the work.

The Office of Inspector General received an allegation that work packages at the Laboratory
were being fdlsified in certain respects, compromising the safety of KSL work activities. We
initiated this inspection to determine if: (1) work packages were being falsified as alleged; and
(2) work packages were being prepared and approved in accordance with the provisions of IMP
300.2 and the Integrated Work Management process.

RESULTS OF INSPECTION

The allegations were substantiated, in part. While we could not corroborate all of the concerns
provided by the complainant, we did identify work package issues and instances of non-
compliance with the provisions of IMP 300.2 and the Integrated Work Management process.
Specifically, we found that:

        Work package authorizing signatures and dates were often missing;




                                       a9   Pr111rcJwith soy ink on recycled paper
       An approving official could not affirm that t h e e work package signatures were actually
       his; and,

       There was an attempt by a KSL field supervisor to have a subordinate change a date on a
       work package, as well as change notations made by an approving official.

In addition, during our inspection we identified three recent internal and external reviews at Los
Alamos that addressed various issues concerning the KSL work package process. These reviews
found widespread and systemic failure in implementing the provisions of IMP 300.2 and the Integrated
Work Management process, with substantial negative impact on the developmenl and authorization of
KSL work packages. The reviews identified nunlerous work package problems, including:

       Missing signatures;

       Improper delegation of signature authority;

       Inadequate training of persons performing work or approving work packages; and,

       Hazards not properly identified in work package documentation.

Taken collectively, the issues identified by these reviews and our inspection reflect a work
package process that is: (1) noilcompliant with applicable policies and procedures, (2) seriously
lacking in attention to details designed to assure the safe conduct of work activities, and
(3) deficient in effective management control. Of particular note, these work package problems
have existed since at least 2002, with various corrective actions having failed to resolve these
problems. As a result, we made several recom~nendationsto managemei~tdesigned to enhance
the work package process and, thus, safety and security at the Laboratory.

MANAGEMENT REACTION

In responding to a draft of this report, management agreed with the report as presented and
indicated that LANL has undertaken several initiatives related to the issues raised in the report.
We found management's coinmeilts to be responsive to our findings a i d recommendations.



cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Under Secretary of Energy
      Under Secretary of Science
      Chief of Staff
      Chief Health, Safety and Security Officer
      Manager, Los Alamos Site Office
      Director, Policy and Internal Controls Management (NA-66)
      Director, Office of Internal Review (CF-1.2)
      Audit Liaison, Los Alamos Site Office
WORK PACKAGES FOR SITE SUPPORT SERVICES AT
LOS ALAMOS NATIONAL LABORATORY



TABLE OF
CONTENTS


              OVERVIEW

                                                                                        I
              Introduction and Objectives -....-.-..-........-..-...-.-...-..-.....-.-.......

                                                                                  2
              O~sef-vationsand Conclusions .............................................


              DETAILS OF FINDINGS

              Work Package Allegations .......-.--..-...-.------............-....--.--...-..
                                                                                   4

                                                                                         6
              Results of Other Reviews .......................................................




              APPENDICES

              A- Scope and Methodology .-.---.--                         10
                                              ..-.----.-.----..--~-.---........-.~~..~~~

              6. Management comments ...................................................   11
Overview

INTRODUCTION     The Department of Energy's (DOE'S) Los Alamos National
AND OBJECTIVES   Laboratory (LANL) is one of the largest multidisciplinary science
                 institutions in the world. LANL enhances global security by
                 ensuring the safety and reliability of the U.S. nuclear weapons
                 stockpile; developing technical solutions to reduce the threat of
                 weapons of mass destruction; and solving problems related to
                 energy, environment, infrastructure, health, and national security.
                 LANL was managed for the National Nuclear Security
                 Administration by the University of California until December 21,
                 2005, when a new management contract with Los Alamos National
                 Security, LLC, entered the transition phase. Los Alarnos National
                 Security assumed full contract responsibilities on June 1, 2006.

                 Since February 2003, site support services at LANL, including
                 maintenance and repairs, have been provided by KSL, a joint
                 venture of Kellogg Brown and Root Inc., Shaw Infrastructure Inc.,
                 and Los Alamos Technical Associates Inc. KSL continues to
                 provide these services under the new management contract.
                 Maintenance and repair work performed by KSL are controlled by
                 the requirements of LANL Implementation Procedure IMP 300.2,
                 Itltegt-ated Work Management for Work Activities. This document
                 establishes the LAlVL Integrated Work Management (IWM)
                 process for doing work in a manner that protects people, the
                 environment, property, and the security of the Nation. The process
                 is designed to address the hazards associated with environmental,
                 safety, and health dangers and safeguards and security threats and
                 vulnerabilities related to KSL work activities. The process also
                 conveys the mechanisms and preventive measures used to reduce
                 the risks posed by these hazards.

                 To implement the provisions of IMP 300.2 and the IWM process,
                 maintenance and repair work at LANL is performed through the
                 use of work packages. Work packages provide the information
                 necessary to ensure that maintenance and repair work is performed
                 consistent with the Facility Safety Plan. A work package is the
                 compilation of all documents required to define the work, identify
                 and analyze hazards, develop and implement controls, perform the
                 work, and ensure performance. Contained within the work
                 package is an Integrated Work Document (IWD), which requires
                 various approvals designed to ensure that work steps, hazards, and
                 controls are described in sufficient detail to safely perfoim the
                 work.




Page 1                               Work Packages for Site Support Services
                                     at Los Alamos National Laboratory
                   The Office of Inspector General (OIG) received an allegation that
                   work packages were being falsified in a variety of ways,
                   compromising the safety of KSL work activities. It was
                   specifically alleged that: (1) work package signatures of approving
                   officials were lined through, re-signed, and re-dated; (2) work
                   package numbers were covered using "white out," and then new
                   numbers were applied to speed up the process of work packages
                   reaching the field; (3) signatures of approving officials were
                   copied and pasted onto original work packages, and then copied
                   and sent to the field to be worked; and (4) an audit of work
                   packages found widespread problems, to include documents
                   without original signatures, names lined through and changed, and
                   work performed before required signatures had been received.

                   The objectives of our inspection were to determine if: (1) work
                   packages were being falsified as alleged; and (2) work packages
                   were being prepared and approved in accordance with the
                   provisions of IMP 300.2 and the IWM process. We sampled 217
                   work packages for the period May 2004 through April 2005 for
                   LANL's Technical Area 50. The time period and the location were
                   selected based on iriformation provided in the allegation.

OBSERVATIONS AND   We concluded that the allegations were partially substantiated.
CONCLUSIONS        Although our sampling of work packages did not identify specific
                   instances where work package signatures were lined through and
                   re-signed or where work package numbers were covered and re-
                   numbered, we did identify work package issues and instances of
                   non-compliance with the provisions of IMP 300.2 and the TWM
                   process. Specifically, we found that:

                       Work package authorizing signatures and dates were often
                       missing;

                       An approving official could not affirm that three work package
                       signatures were actually his; and,

                       There was an attempt by a KSL field supervisor to have a
                       subordinate line out and change a date on a work package, as
                       well as change notations made by an approving official.

                   In addition, while we did not identify the specific work package
                   audit discussed in the allegation, we did identify three recent
                   internal and external reviews at LANL, including one conducted
                   by DOE'S Office of Security and Safety Performance Assurance,
                   that addressed various issues concerning the KSL work package



Page 2                                              Observations and Conclusions
         process. These reviews found widespread and systemic failure in
         implementing the provisions of IMP 300.2 and the TWM process,
         with substantial negative impact on the development and
         authorization of KSL work packages. The reviews identified
         numerous work package problems, to include:

            Missing signatures;

            Improper delegation of signature authority;

            Inadequate training of persons performing work or approving
            work packages; and,

            Hazards not properly identified in work package
            docun~entation.

         Taken collectively, the issues identified by these reviews and our
         inspection reflect a work package process that is noncompliant
         with applicable policies and procedures, that is seriously lacking in
         attention to details designed to assure the safe conduct of work
         activities, and that is deficient in effective management control.
         We believe this situation represents a potentially serious threat to
         the safety of associated work processes. Of particular note, these
         work package problems have existed since at least 2002, with
         various corrective actions having failed to resolve these problems.




Page 3                                     Observations and Conclusions
Details of Findings

WORK PACKAGE          Although our sampling of the 217 work packages did not identify
ALLEGATIONS           specific instances where work package signatures were lined
                      through and re-signed or where work package numbers were
                      covered and re-numbered, we did identify work package issues and
                      instances of non-compliance with the provisions of IMP 300.2 and
                      the IWM process, as follows.

Missing Signatures    We found that work package authorizing signatures and dates were
And Dates             often missing. This appeared to be a systemic issue involving
                      signatures for the authorization, verification, and certification of
                      various work package elements. Specifically, while reviewing our
                      sample of work packages for the alleged irregularities, we
                      repeatedly observed instances where authorizing signatures and
                      dates were missing. Therefore, we took a subsample of 24 work
                      packages and specifically examined them to determine if all
                      required signatures and dates were present. We determined that 11
                      of the 24 work packages were missing signatures and dates. For
                      example, one work package did not include:

                         The signature and date of the LANL Work Managenlent Team
                         Leader approving the Post-Job ReviewILessons Learned and
                         Closeout Form;

                         The signature and date of the Responsible Division Leader
                         (RDL) approving the Environment, Safety and Health Site
                         Hazard and Control Form; and,

                         The signature and date of the Person-in-Charge verifying that
                         three of the assigned workers had the authorization and training
                         to perform the work safely.

                      As another example, a work package did not include:

                         The signature and date of the Facility CoordinatorIDesignee
                         accepting or rejecting the work order;

                          The signature and date of the RDL approving the Environment,
                          Safety and Health Site Hazard and Control Form; and,

                          The signature and date of the Person-in-Charge verifying that
                          four of the assigned workers had the authorization and training
                          to perform the work safely.




Page 4                                                               Details of Findings
Questionable        We found three instances where an approving official could not
Signatures          affirm that work package signatures were actually his. As part of
                    our sampling of the 217 work packages, we looked for any
                    evidence that signatures of approving officials were lined through,
                    re-signed, and re-dated. During this review, we identified that the
                    signatures of one official were not consistent, to include being
                    significantly different in several instances. Subsequently, we
                    focused on 14 work packages where this official had signed a total
                    of 36 times in various capacities.

                    These signatures, which provided various approvals and gave
                    specific assurances that work activities met safety and security
                    requirements, contained inultiple inconsistencies. We interviewed
                    this official and had him review the 36 signatures. The official
                    told us that 33 of the signatures were definitely his. However, he
                    told us that two of the remaining three signatures were
                    questionable and that he could not say for sure that they were his.
                    He told us that the third signature, where his first name was
                    misspelled, was highly questionable and that it was very unlikely
                    he would have inisspelled his first name. In this instance, the
                    official's signature represented significant safety and security
                    certifications. Specifically, the official's name was signed as the
                    LANL Work Management Team Leader, certifying that "In my
                    judgment, this work meets Laboratory requirements to meet safety
                    and security requirements. I have ensured that the work activities
                    in the IWDIWork Package are within the operating envelope as
                    stated in the Facility Safety Plan or Authorization Basis." The
                    official told us that he had not authorized anyone to sign for him in
                    the three instances.

Attempt to Modify   We found that there was an attempt by a KSL field supervisor to
Work Package        have a subordinate line out and change a date on a work package,
                    as well as change notations made by an authorizing official. Under
                    the provisions of IMP 300.2, the applicable RDL is the person with
                    ultimate responsibility, authority, and accountability for a facility,
                    including safety, security, and environmental compliance. The
                    RDL is required to review and sign all work packages for facilities
                    under his or her control prior to commencement of the work. The
                    RDL's signature is found on the IWD, as well as the Environment,
                    Safety and Health Site Hazard and Control Form, which identifies
                    hazards and concerns that could potentially affect worker safety.

                    In 2004, a work package had been annotated and approved by the
                    RDL. Subsequently a KSL employee was instructed by a
                    supervisor to line out a date on the work package and change

                                                                                 -   -   -




Page 5                                                              Details of Findings
                   notations made by the RDL. After the KSL en~ployeeraised this
                   issue to another supervisor, this instruction was rescinded. We
                   determined that the RDL was not aware that there had been an
                   attempt to modify this work package after his approval.

RESULTS OF OTHER   Although we did not identify the specific work package audit
REVIEWS            discussed in the allegation, we did identify three recent internal
                   and external reviews that addressed various issues concerning the
                   KSL work package process. In our view, the results of these
                   reviews supported the overall contentions in the allegation we
                   received. These reviews included:

                      A September 29,2005, KSL Management Assessment titled
                      "KSL Implementation of Integrated Work Management for
                      Work Activities."

                      A November 2005 DOE Office of Security and Safety
                      Perfonnance Assurance, Office of Independent Oversight,
                      "Inspection of Environment, Safety, and Health Programs at
                      the Los Alamos National Laboratory."

                      A March 8,2006, review commissioned by the LANL Facility
                      Management Division titled "IMP 300, Integrated Work
                      Management for Work Activities, Implementation Assessment
                      Report."

                   These reviews found widespread and systemic failures in
                   implementing the provisions of IMP 300.2 and the IWM process,
                   with substantial negative impact on the development and
                   authorization of KSL work packages.

KSL Management     The KSL Management Assessment was conducted by KSL to
Assessment         deternine if KSL was implementing the requirements of IMP 300.2
                   for performing work in a safe, secure, environmeiltally responsible
                   manner. The assessment identified 13 findings, to include:

                       A lack of objective evidence that personnel were trained to the
                       requirements of IMP 300.2;

                       Incomplete work package documents; and,

                       Missing required signatures on work package documents.

                   The assessment team concluded that the overall implementation of
                   IMP 300.2 was inconsistent and lacked appropriate formality and


Page 6                                                            Details of Findings
                   attention to detail. The assessment report stated that "The
                   prevalence of missing or incomplete signatures and data on forms
                   suggests that required reviews and involvement of responsible
                   personnel is less than adequate and could be a precursor [to] a
                   significant failure of control in regards to Integrated Work
                   Management for Work Activities."

Independent        The review by the Office of Independent Oversight assessed the
Oversight Review   effectiveness of environment, safety, and health programs at LANL.
                   The review identified 26 findings and included issues such as:

                      INlP 300.2 did not provide sufficiently clear requirements in all
                      areas to ensure effective implementation across LANL, and for
                      those requirements that were clearly defined in IMP 300.2,
                      several LANL Divisions were not effectively implementing the
                      requirements;

                      Some LANL Divisions stated that their IWDs were compliant
                      with or equivalent to IMP 300.2 requirements, even though
                      their JWDs did not meet the IMP 300.2 requirements;

                      Training required for KSL worker activities had not always
                      been completed, and training documents did not always verify
                      that adequate training was provided;

                       In some cases, IWDs had not been adequately revised to reflect
                       recent changes in hazards or controls prior to performing work;

                       Subject matter expert involvement was lacking in the
                       identification and analysis of hazards associated with work
                       activities; and,

                       IWDs did not have signatures froin both the Responsible
                       Laboratory Line Manager and the RDL as required by IMP
                       300.2.

                   The review team concluded that longstanding weaknesses in
                   LANL processes have been repeatedly identified, but have not
                   been adequately addressed. Their report noted that LANL injury
                   and illness rates are among the highest in the complex and stated
                   that "hazards to workers had not been adequately identified,
                   analyzed, and controlled."




Page 7                                                           Details of Findings
IMP 300 Implementation The Implementation Assessment commissioned by the LANL
Assessment Report      Facility Management Division reviewed activities associated with
                       the performance of maintenance work and compliance with IMP
                       300.2 and other governing procedures. The assessment team
                       reviewed 101 of 7,5 14 maintenance work packages created
                       between July 1,2005, and December 22,2005, including examples
                       from each of the Facility Maintenance Units at LANL. The
                       assessment found that IMP 300.2 had not been fully addressed and
                       identified numerous deficiencies and inconsistencies in work
                       packages across all 12 Facility Maintenance Units. All 101 work
                       packages reviewed contained one or more problems, to include:

                              Work authorizations not properly authorized;

                              RDL signature authority improperly delegated;

                              RDLs and Persons-in-Charge not trained for their respective
                              roles;

                              Training and qualifications of workers not applying to the
                              specific work activities;

                              Points of Contact and Persons-in-Charge not identified on
                              1WDs; and,

                              Job Hazard Analysis tool not in use;

                           The assessment team concluded that, although some individual
                           issues associated with work packages were not of particular
                           significance, considered collectively, they reflected a lack of
                           effective quality reviews contrary to Laboratory requirements. The
                           assessment team also concluded that, across all Facility
                           Maintenance Units, there was a general inattention to detail.

RECOMMENDATIONS            We recommend that, given the potential significance of the issues
                           associated with KSL work activities at LANL and their impact on
                           safety and security, the Manager, Los Alamos Site Office, ensures
                           that LAIVL provides immediate attention to and continued
                           oversight of KSL work package activities and ensures that:

                           1. All KSL work packages are developed and approved in
                              accordance with applicable policies and procedures.

                           2. All KSL work package activities are conducted in accordance
                              with the requirements of IMP 300.2 and the IWM process.


 Page 8                                                                  Recommendations
             We also recommend that the Manager, Los Alamos Site Office:

             3. Have LANL and KSL evaluate the recent assessments of the
                IMP 300.2 and the IWM processes and develop a "lessons
                learned" to be used in correcting work package deficiencies.

MANAGEMENT   In comments on a draft of this report, the National Nuclear
COMMENTS     Security Administration agreed with the report as presented and
             indicated that LANL has undertaken several initiatives related to
             the issues raised in the report.

INSPECTOR    We found management's comments to be responsive to the report
COMMENTS     findings and recommendations.




Page 9                             Management and Inspector Comments
Appendix A

SCOPE AND     We conducted the majority of our fieldwork from September 2005
METHODOLOGY   though March 2006. Our review included interviews with DOE
              officials fkom the Los Alamos Site Office, officials from LANL
              Maintenance Divisions, and subcontractor employees. We also
              reviewed applicable policies and procedures regarding integrated
              work management at LANL.

              This inspection was conducted in accordance with the "Quality
              Standards for Inspections" issued by the President's Council on
              Integrity and Efficiency.




Page 10                                              Scope and Methodology
Appendix B



                                      Department of Energy
                               National Nuclear Security Administration
                                        Washington, DC 20585

                                          November 6 , 2006




             MEMORANDUM FOR                Christopher R. Sharpley
                                           Deputy lnspector General
                                             for Investigations and Inspections

             FROM:
                                           AssociateC.Administrat
                                           Michael     Kane~@&--
                                             for Management and Administration

             SUBJECT:                      Comments to Draft Lnspectiorl Report Los
                                           Alamos's Support Services Work Packages,
                                           S051S039/2006-30192


             The National Nuclear Security Administration (NNSA) appreciates the
             opportunity to review the Inspector General's (IG) draft inspection report,
             "Work Packages for Site Support Services at Los Alamos National
             Iaaboratory." We understand that this inspection was based on an
             allegatioil received by the IG that work packages were being falsified in a
             variety ofways, compromising the safety of KSL, a Laboratory
             subcontractor, work activities. We equally understand that the inspection
             objectives were to determine if work packages were being falsified and if
             work packagcs were being prepared and approved in accordance with
             directions.

             NNSA agrees with the report as presented. Since June. the Laboratory has
             initiated several initiatives related to the issues raised, such as:

                     The Laboratory issued an lntegrated Corrective Action Plan which
                     addresses several of the noted issues related to "IMP 300.2" and
                     the Integrated Work Management Processes observed in
                     assessments. An Improvement Plan for the Integrated Work
                     Management processes will be issued in January 2007.
                     The Laboratory finalized its Maintenance Planner Training and
                     Qualification Program. This performance based training and
                     qualification program includes a graded approach for qualifications
                     based on the complexity of assignments and will improve
                     consistency and discipline in work planning and management.




                                      @   Prlnled ,"llh r q "k on recycled paper




                                                                                               -




Page II                                                                            Management Comments
Appendix B                                                                                   (continued)




                 For the reco~nmendationsfpcused on KSL work packages being
                 developed in accordance with policies and work packages being
                 conducted in accordance with the published requirements, NNSA agrees.
                 The Laboratory has held a series of "Stand Downs" to re-emphasize the
                 importance of the preparation/review/approvalof IWM documentation.
                 The Laboratory is developing new programs to facilitate the compliant
                 execution of work such as a Conduct of Operations Manual, a Conduct of
                 Maintenance Manual, and a Conduct of Engineering Manual. A working
                 group has been formed to enhance the Implementation Plan for IMP
                 300.2. The Laboratory is implementing the Maintenance Planner Training
                 and Qualification Program.

                 For the recommendation focused on the development of a "Lessons
                 Learned" system, the Laboratory and the subcontractor is incorporating
                 any lessons learned into the Maintenance Planner training program and
                 will share, as appropriate, lcssons learned with others in the NNSA
                 complex. NNSA will monitor the Laboratory's success and progress
                 through the Laboratory's verification and audit process in its Contractor
                 Assurance System.

          Should you have any questions related to this response, please let me know.

                 cc:    Ed Wilmot, Manager, Los Alamos Site Office
                        Frank Russo, Senior Advisor, Environment, Safety and Health
                        David Boyd, Senior Procurement Executive
                        Karen Boardrnan, Director, Service Center




Page 12                                                                           Management Comments
                                                                    1G Report No. DOEIIG-0746

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

I. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recomn~endationscould have been
   included in the report to assist management in implementing corrective actions?

3. What fonnat, stylistic, or organizational changes might have made this reporl's overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we Inay conlact you shoulcl we have
   ally questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of I~lspectorGeneral (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Iiltemet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Custon~erResponse Form
                                       attached to the report.
